<html>
<title> - DEMOCRACY AND GOVERNANCE IN THE MIDDLE EAST AND NORTH AFRICA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



      DEMOCRACY AND GOVERNANCE IN THE MIDDLE EAST AND NORTH AFRICA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 7, 2017

                               __________

                           Serial No. 115-88

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-511 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a> 




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
VACANT<greek-l>As of 10/24/17 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Scott Mastic, vice president for programs, International 
  Republican Institute...........................................     7
Mr. Leslie Campbell, senior associate and regional director for 
  Middle East and North Africa programs, National Democratic 
  Institute......................................................    18
Ms. Zeinab Abdelkarim, regional director, Middle East and North 
  Africa, International Foundation for Electoral Systems.........    27
Robert Herman, Ph.D., vice president for international programs, 
  Vice President for Emergency Assistance Programs and 
  Multilateral Initiatives, Freedom House........................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Scott Mastic: Prepared statement.............................    10
Mr. Leslie Campbell: Prepared statement..........................    20
Ms. Zeinab Abdelkarim: Prepared statement........................    29
Robert Herman, Ph.D.: Prepared statement.........................    43

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73

 
      DEMOCRACY AND GOVERNANCE IN THE MIDDLE EAST AND NORTH AFRICA

                              ----------                              


                       TUESDAY, NOVEMBER 7, 2017

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Ranking Member Deutch--playing 
the part of Mr. Deutch will be our esteemed gentleman from 
Virginia--big day today, an election in Virginia--for 5 minutes 
each for our opening statements. I will then recognize other 
members seeking recognition for 1 minute. We will then hear 
from our witnesses.
    And, without objection, the witnesses' prepared statements 
will be made a part of the record, and members may have 5 days 
to insert statements and questions for the record, subject to 
the length limitations in the rules.
    The Chair now recognizes herself for 5 minutes.
    Promoting democracy and governance is not only important 
for supporting American values, but it is also in our national 
security interests. The recent changes we are seeing in the 
Middle East and North Africa illustrate the growing demand for 
real reforms. The changes might be occurring slowly--and 
sometimes too slow, in my opinion--but the U.S. should and must 
answer this call.
    In the long run, more democratic governments are also 
stable and reliable allies. Legitimate, inclusive, and 
responsive governments not only make better trading partners, 
but they also help prevent the kind of marginalization that is 
pushing so many to violence and extremism in the Middle East 
today.
    For the sake of U.S. interests, we have an obligation to 
support democracy and governance programs, working whenever and 
wherever possible to bolster civic institutions and electoral 
processes, to share best practices for rooting out corruption, 
for strengthening the rule of law, and to build the kind of 
support for democracy that can withstand the ups and downs of 
difficult transitions.
    I commend IRI, NDI, IFES, and Freedom House for their 
tremendous work, not only in countries where they are welcomed 
openly but also inside and on the margins of conflict zones, 
where they empower stakeholders and prepare them for the next 
stage.
    The ranking member and I have been lucky to witness 
firsthand some of your efforts when we travel throughout the 
region. Just recently, IRI and NDI hosted a roundtable with 
young Jordanian women leaders who are doing remarkable work as 
they seek a better future.
    My staff was also encouraged by the work of IFES in a trip 
to Tunisia last year, where they were briefed on their 
electoral programs and assistance with the process of 
decentralization.
    And Freedom House continues to be a bastion of liberty and 
democracy throughout the world. Your reports have been 
instrumental in formulating policies and advocating for things 
like freedom of the press, digital media, and civil liberties.
    But despite all of these efforts, what always seems to be 
missing from our end is a consistent and patient U.S. strategy 
that outlines our long-term democracy and governance programs, 
our goals, and how we can achieve them.
    Just in the past 4 years, our democracy and governance, 
D&G, assistance to the MENA region has varied widely, from 
about $200 million in fiscal year 2015 to $500 million in 
fiscal year 2017 to $300 million in the fiscal year 2018 
request.
    While some variance in approach is to be expected, 
especially across administrations, being more consistent in our 
messaging and in our assistance must be prioritized. We need to 
be consistent about what we expect from our partners, making 
clear in no uncertain terms that any kind of repression will 
have consequences.
    We need to hold governments accountable and call out our 
friends and allies when we see any kind of democracy 
backsliding. We need to find ways to keep our democracy and 
governance assistance, D&G, at steady levels, build on prior 
achievements, and not let progress fall by the wayside.
    We need to prioritize the participation of youth, of women 
and minorities in civic life. And we need to lay the groundwork 
so that when the inevitable democratic setback does happen, our 
programming has made institutions and communities stronger, 
more resilient, and better able to withstand democratic 
challenges.
    As we look across the region today, there are no shortages 
of these challenges.
    In Lebanon, despite many hailing its democratic process, we 
just saw the Prime Minister resign because of Iran and 
Hezbollah's influence in the government.
    In Libya, despite successes at the local and municipal 
levels, rival factions continue to spar over the role of the 
national military.
    In Tunisia, the large majority of citizens are increasingly 
frustrated about the direction of the transition, including a 
recently passed reconciliation law that could let public 
officials off the hook for corruption.
    In Egypt, space for civil society has all but disappeared, 
as the Sisi government silences even the most innocuous 
criticism. Rumors that Egypt may amend its NGO law should not 
be taken seriously until we see tangible progress. We have seen 
this bait-and-switch strategy too many times before with the 
Egyptians.
    And I am increasingly concerned that more countries like 
Tunisia, with its draft NGO law, will take a page out of 
Egypt's playbook.
    With countries all over the region struggling to implement 
reforms, we must make sure that our programming is moving in 
the right direction, both in focus and in intensity. We cannot 
let the short-term wins come at the expense of our long-term 
goals. We must be patient, consistent, and concentrated on 
promoting democracy and governance for those fighting for those 
ideals and for our own U.S. interests.
    I am so pleased to have our four witnesses here today from 
organizations doing this work on the ground. I look forward to 
hearing about the challenges that you are facing as well as any 
recommendations that you may make for Congress and the 
administration.
    And, with that, I am so pleased to yield to today's ranking 
member, Mr. Connolly, my friend from Virginia.
    Mr. Connolly. Thank you. And thank you, my friend from 
Florida. We are going to miss you in this body. But thank you 
for convening today's hearing.
    And thank you so much to our witnesses for participating.
    They represent four organizations that do America proud. I 
have had the privilege of visiting with NDI and IRI and Freedom 
House and others all over the world, from Sri Lanka to 
Mongolia, to Ukraine, to Georgia. And, you know, they are a 
beacon of hope in those countries, and they represent America's 
best.
    As Members of Congress and as Representatives of the 
American people, we here in Congress must reaffirm the values 
upon which our Nation was founded, especially when the Trump 
administration neglects to do so. Our constituents believe that 
all people should enjoy the basic freedoms of speech, 
expression, religion, and freedom from tyranny, oppression, 
torture, and discrimination.
    American foreign policy should reflect and promote those 
core values, not only because it is the right thing to do but 
also because it serves our national interests. The hard truth 
is that, when the United States does not act as a forceful 
advocate for those principles and our interests abroad, we 
leave a vacuum. And when U.S. leadership retreats, adversaries 
who do not share those interests and those core values are all 
too happy to fill that vacuum.
    Ultimately, that endangers the United States' security. 
Violent extremist ideologies that have given birth to al-Qaeda, 
ISIS, and other terrorist organizations spread freely where 
democratic governance is weak, justice uncertain, and legal 
avenues for change scarce.
    The disease plaguing societies across the Middle East is 
poor governance and unrepresentative leadership and the lack of 
political space. But we can treat this disease through our 
efforts to reduce poverty, expand opportunity, nurture 
societies that respect fundamental freedoms and the rule of 
law, facilitate broadly representative government institutions, 
and minimize corruption.
    While the U.S. has always allocated significant resources 
to supporting democracy and good governance programs in the 
region, the willingness of our leaders to publicly call for 
respect for human rights has been equally important. After all, 
words matter.
    That is why many of us are deeply troubled by this 
administration's approach, which disinvests in democracy 
promotion and remains silent in the face of democratic 
backsliding. President Trump's budget would have slashed 
democracy assistance to the region by a staggering $200 
million. And raising the issue of human rights seems to have 
disappeared from our regional foreign policy agenda.
    Beyond funding, President Trump has declined to invest in 
the human resources necessary to carry out the State Department 
and USAID's mission. At State, only 4 of 22 assistant secretary 
vacancies are filled--4 of 22. And the Bureau for Near Eastern 
Affairs still lacks a nominee. At USAID, only 1 person has even 
been nominated to fill the 10 deputy and assistant 
administrator positions.
    President Trump has failed to nominate Ambassadors for five 
key countries in the Middle East and North Africa region, and 
his incoherent foreign policies drove the charge d'affaires, 
the United States charge, in Doha to resign. We have hollowed 
out diplomatic presences and made it more difficult to 
implement comprehensive and sustained democracy and governance 
programs.
    We are already witnessing the effects of the Trump 
administration's retreat. On President Trump's first foreign 
trip, he failed to raise human rights concerns in Saudi Arabia, 
in striking contrast to his predecessor. Just this week, there 
have been mass arrests of Saudi Arabian royals, ministers, and 
businessmen in a supposed anti-corruption purge, but critics 
warn that this crackdown may be a strategy for Crown Prince 
Mohammed bin Salman to consolidate power and silence political 
opposition.
    Tragically, the Middle East and North Africa are home to 
some of the least democratic governments in the world. 
Therefore, U.S. support for democracy is that much more 
critical.
    I am a proud member of the House Democracy Partnership, 
which works with partner countries like Iraq, Afghanistan, and 
Lebanon to strengthen democratic legislatures, with support 
from the National Democratic Institute and the International 
Republican Institute, both of which do great work.
    It is through organizations like these represented today 
that we train the next generation of women for political 
leadership, promote programs that counter violent extremism, 
provide governance training to communities in liberated areas 
of Syria so they can be more resilient in the face of extremist 
groups.
    Citizens must be reassured that, at the end of the day, our 
Government is working and working for them. There is no better 
way to ensure that this is the case than by supporting local 
governments.
    During my 14 years serving in local government, I was 
constantly reminded of how immediately one's performance is 
judged, rewarded, or punished. Everyone knows where you live. 
The accountability is absolute. Democracy is built from the 
bottom up, not the top down.
    These important efforts contribute to long-term stability 
in a region that desperately needs it. A consistent, effective, 
and sustained strategy is crucial to reflect our Nation's 
commitment to universal values of freedom and equality and to 
treat the disease of oppression and disenfranchisement that has 
helped breed violent extremism in the region.
    I look forward to hearing from our witnesses, Madam 
Chairman, regarding how democracy and governance work is being 
protected by the United States Government and promoting our 
national interest in this critical region.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you for your opening statement, Mr. 
Connolly.
    I now recognize the members for any opening statements they 
would like, and I currently have Mr. Rohrabacher and Mr. 
Cicilline on deck, if that--and Mr. Issa. So we will start with 
Mr. Rohrabacher.
    Thank you, Dana.
    Mr. Rohrabacher. Thank you very much.
    Years ago, of course, I was in the Reagan administration. I 
worked in the Reagan White House for 7\1/2\ years. And when we 
came there from around the United States to be part of that new 
administration, we were determined to defeat the number-one 
enemy of freedom in the world, our idea we had to prioritize, 
and our priority was to bring down the Soviet Union.
    And that is what we did. I think it was one of the greatest 
accomplishments I have ever seen in my lifetime, of bringing 
down the Soviet Union without a confrontation between Russia 
and the United States. That is because Ronald Reagan did make 
it democracy versus communism and freedom versus tyranny. But 
when we were in the White House, we made sure that we were not 
going to have an overthrow of a less-than-free country and have 
it replaced with a communist dictatorship.
    Today, radical Islamic terrorism is the number-one threat 
to the civilized world. And radical Islam manifests itself when 
it takes over a government with what you would call radical 
Islamic fascism. So, whatever we do to try to promote 
democracy--and I agree with the sentiments that have been 
expressed--let us not do it in a way that radical Islamic 
terrorists will take over governments that are flawed.
    And that is a great challenge that we have, because if we 
become too idealistic and we end up promoting communism during 
the Cold War or fascism before that because we have overthrown 
and hurt and undermined governments that are, yes, not 
acceptable by our standards but better than communism or better 
than radical Islamic terrorism, then we have failed.
    So I enjoyed Mr. Connolly's remarks, and I think that we 
have to take that idealism but also take it with pragmatism.
    Thank you very much.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Rohrabacher.
    Mr. Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Chairman Ros-Lehtinen and Ranking 
Member Deutch, for calling this important and very timely 
hearing today.
    And thank you to our acting ranking member, Mr. Connolly, 
for his thoughtful opening statement.
    Thank you to the witnesses for appearing today and 
providing your testimony but, more importantly, for the 
extraordinary work that you do around the world.
    In 2011, I was a fairly new member of this subcommittee, 
and, like many of us here, I watched the unrest in the Arab 
world, what we now know as the Arab Spring, with a mix of hope 
and fear--hope that millions of people who suffered under 
authoritarian repression in the region would finally be heard 
and able to escape this repression that has been so endemic to 
the region. My fear was that the hopes and dreams of millions 
of Arab men and women would be crushed by the entrenched 
systems of corruption that have been in place for so long.
    Since 2011, millions of people have lost their lives in the 
fight for freedom in the Middle East. Unfortunately, terrorists 
and extremists have taken advantage of these genuine movements 
for civil and human rights and sow chaos and murder and further 
oppression, the very things so many hoped to escape.
    There are some points of light amidst the darkness, most 
notably in Tunisia. But, as our witnesses' written testimony 
points out, the Middle East region today remains beset by 
corruption, authoritarianism, and repression. And I fear that 
the lack of leadership we have from this administration on 
these issues leaves American national security interests 
exposed to the chaos and uncertainty that authoritarianism 
breeds.
    I look forward to the witnesses' testimony today, and I 
hope that we may shed some light on constructive ways the 
United States can support democracy and good governance in the 
region.
    And I thank the witnesses again and yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Issa of California.
    Mr. Issa. Thank you, Madam Chair.
    During the questioning, I certainly hope that we will spend 
more than a little time on the current crisis in Lebanon. As I 
think all of our witnesses today but particularly our two 
democracy-oriented ones go, Lebanon has for generations had a 
delicate balance between more than 17 confessionals. That 
balance has worked because election law has allowed 
representation of Druze, Shia, Sunni, Christians of several 
sects, and the like.
    In a recent change in the election law agreed by the 
various parties, it became clear that the attempt or the belief 
by some was that Christians would have a greater share, while, 
in fact, the recognition was that the Shia Hezbollah-backed 
segment also believed that they would gain a functional 
majority. It now appears, with the resignation and exile of the 
Prime Minister, that that belief is very possible in 2018.
    At the close of a long battle against ISIS in which both 
the Lebanese Armed Forces and Hezbollah engaged on the 
Lebanese-Syrian border against ISIS forces, it now appears as 
though the fight has turned internally. And I would like to 
have as much information given to us that we can then turn into 
policy. Because the United States is a major supporter of 
democracy in Lebanon, of the Lebanese Armed Forces, and of 
Lebanese universities, and that has always been based on their 
delicate balance and their ability to continue with it.
    And thank you, Madam Chair. I yield back.
    Ms. Ros-Lehtinen. A valuable contribution. Thank you, Mr. 
Issa.
    And now it is a delight to present our witnesses.
    First, we would like to welcome back Mr. Scott Mastic, the 
new vice president for programs at the International Republican 
Institute.
    Congrats on your recent promotion, Scott.
    Prior to this position, Mr. Mastic served as IRI's director 
for the Middle East and North Africa region.
    We look forward to hearing your testimony.
    Next, I am pleased to welcome back Mr. Leslie Campbell, who 
serves as the National Democratic Institute's senior associate 
and regional director for the Middle East and North Africa 
programs. Mr. Campbell has directed programs in the region 
since 1996.
    Thank you for being here this morning, sir.
    And, third, I would like to welcome Zeinab Abdelkarim, who 
serves as the International Foundation for Electoral Systems, 
IFES, regional director for Middle East and North Africa 
programs. Previously, Ms. Abdelkarim served as deputy chief of 
party in Yemen and as deputy director for Middle East programs 
for IFES.
    We welcome you here today.
    And, finally, we would like to welcome Dr. Robert Herman, 
vice president for international programs and for emergency 
assistance programs and multilateral initiatives at Freedom 
House. Prior to his current position at Freedom House, Dr. 
Herman worked for the State Department, USAID, Management 
Systems International, and many other organizations.
    We thank you for your service, sir, and we look forward to 
hearing your testimony.
    And, Mr. Mastic, we will start with you.
    And, as I said at the beginning, all of your prepared 
remarks will be made a part of the record.
    Thank you.

  STATEMENT OF MR. SCOTT MASTIC, VICE PRESIDENT FOR PROGRAMS, 
               INTERNATIONAL REPUBLICAN INSTITUTE

    Mr. Mastic. Thank you. Chairman Ros-Lehtinen, Congressman 
Connolly, members of the committee, it is my pleasure to 
testify before you today. I will offer summary remarks to the 
written statement submitted for the record.
    It is no secret that democracy in the Middle East and North 
Africa has faced formidable obstacles since 2011. Having said 
that, many people talk about the Arab Spring as if it was the 
last hope for democracy in the Middle East. I prefer instead to 
think of it as the first convulsion of democratic change in a 
part of the world where, with the exception of Israel, 
democracy has been notably absent.
    It is tempting to look at failing states in Libya, Syria, 
and Yemen and conclude that rule by strongmen is preferable to 
chaos. Yet such an approach does not advance the long-term 
interests of the United States or our allies. Rather, improved 
governance and strengthened democratic values are central to 
defeating the threats posed by radical Islamism.
    At IRI, we think the United States must pursue a smart 
approach to democracy and governance, to advance democratic 
gains where possible, and that democracy and governance 
assistance has a critical role to play in stabilizing conflict 
zones.
    With respect to democratic gains, we must act to ensure 
that Tunisia's democratic progress becomes more consolidated. 
Other positive developments that deserve our support include 
allowing civil society to petition on legislative matters in 
Morocco and vibrant debates over the merits of decentralized 
government occurring in multiple countries.
    Perhaps the most important achievement of the Arab Spring 
is the role of young, emerging leaders working within civil 
society and the space that is being created by new dynamism, 
even in countries like Lebanon, where the pervasive reach of 
Hezbollah poses an ever-present threat.
    IRI is supporting democratic gains across the region by 
training women to be strong advocates and successful elected 
officials, supporting up-and-coming civil society leaders, 
advancing decentralization by strengthening sub-national 
governance, and working with political stakeholders to compete 
within the bounds of the democratic process.
    Regrettably, the last years have also produced horrific, 
violent conflict and security vacuums. Working to stabilize 
these areas of conflict requires our urgent attention. While 
policymakers often focus on maintaining security through 
military and intelligence assistance, IRI augments these 
efforts by focusing on legitimate citizen-responsive governance 
as a means to combat violent extremism.
    At IRI, we believe that good governance delivery is a 
central factor in shaping the potential for conflict and 
violence. Successful governance requires acting in good faith, 
creating nondiscriminatory policies, providing equal 
opportunity, focusing on jobs and service delivery, being 
responsive to citizens, and punishing corruption and 
incompetence.
    These principles are also crucial to helping countries get 
out of conflict. To offer one example, in Iraq, the success of 
ISIS was directly tied to marginalization of the country's 
Sunni population. With the defeat of ISIS, it is crucial that 
we now move quickly to help key provinces build more inclusive, 
effective governing systems. It is also crucial that we support 
local decision-makers and institutions against the negative 
influence of Iran, which continues to advance its hegemonic 
ambitions on the region.
    There are two challenges I want to address briefly.
    The first is the trend of constricting civil society space 
as a result of draconian NGO laws. Egypt's once vibrant human 
rights and democracy community has been all but silenced by a 
new NGO law that gives the Egyptian Government sweeping powers. 
In practice, the law makes it virtually impossible for Egyptian 
NGOs to operate legally. Egypt, regrettably, is a leader in 
this regard, but there are signs other countries may enact 
similar laws and that a trend is emerging.
    A final challenge lies here at home. There are government 
regulations that prescribe how donors should select appropriate 
choice of instrument for democracy assistance programs. IRI and 
most democracy NGOs agree with Congress' recognition that there 
are unique benefits of assistance mechanisms for democracy 
programs.
    IRI's long-term approach, our network of trusted local 
partners, and our invaluable people-to-people relationships 
gives us a unique advantage in delivering value for the 
American people and serves U.S. interests well beyond the scope 
of individual programs.
    Madam Chairman, my recommendations are as follows: First, 
we would like to see greater support for democracy and 
governance programs, participatory governance, anti-corruption, 
democratic elections, and political leadership; second, we 
would like to see a prioritization of sub-national governance 
programs that help to stabilize environments plagued by 
conflict; third, IRI calls on the U.S. Government to raise the 
region's constricting space for civil society, both privately 
and publicly, with counterparts; and fourth, Congress should 
provide greater oversight of choice of instrument to ensure 
that taxpayer dollars are being spent in the most efficient and 
results-oriented way.
    Thank you for this opportunity to offer testimony today.
    [The prepared statement of Mr. Mastic follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Great recommendations. Thank you so much, 
Mr. Mastic.
    Mr. Campbell.

STATEMENT OF MR. LESLIE CAMPBELL, SENIOR ASSOCIATE AND REGIONAL 
 DIRECTOR FOR MIDDLE EAST AND NORTH AFRICA PROGRAMS, NATIONAL 
                      DEMOCRATIC INSTITUTE

    Mr. Campbell. Thank you, Chairman Ros-Lehtinen, Acting 
Ranking Member Connolly, and members of the committee.
    It is sometimes posited that the Arab Spring unleashed a 
new era of instability in the Middle East by toppling 
repressive but ``stable'' dictators. However, this often-stated 
thesis collapses under scrutiny, as these supposedly stable 
regimes are increasing the locus of conflict and regional 
disarray.
    On the other hand, the countries that undertook limited 
democratic reform or were relatively well governed prior to the 
2011 uprisings--Morocco, Tunisia, Jordan, and Lebanon--have 
demonstrated resistance to destabilizing forces and continue on 
a path of limited liberalization, if not deep reform. Countries 
with long histories of authoritarian government or 
dictatorship--Libya, Syria, and Egypt, as examples--are in 
various states of societal and political crisis.
    In other words, more democratic and open government is 
actually correlated with the relatively peaceful parts of the 
region, while authoritarianism and repression have spawned and 
furthered instability and conflict. And it is in this context 
that I want to describe NDI's programs in democracy and 
governance, both successes and challenges.
    Across the region, a continuing youth bulge, matched by dim 
economic prospects, is creating conditions conducive to 
turmoil. Sixty percent of the population in the region is under 
the age of 30, and half of these are just entering the 
workforce. However, unemployment in the MENA region is twice 
the global average.
    A further overlay in this complex regional tapestry is the 
rapid growth of Russian-style crackdowns in civil society. 
Egypt has become one of the world's most hostile nations to 
civil society activism, and even Tunisia, Morocco, and Jordan 
have at least discussed laws that would restrict civil society 
and foreign funding.
    Despite the obstacles, though, Middle Easterners do not 
perceive that they are witnessing the end of reform and 
modernization, and NDI is just as engaged across the region as 
ever, with requests for support outstripping funding and human 
resources.
    Some examples of these programs: Campaign schools to train 
the next generation of women political leaders; help women 
counter violence, which is exacerbated in conflict zones; 
teaching the principles of democracy and open debate to youth 
so they become invested in their country's future instead of 
radical ideologies and groups; providing governance training to 
communities in liberated areas of Syria so they can become more 
stable and resilient against extremist groups; helping ease 
tension between refugees and host countries in Jordan and 
Lebanon, where displaced persons are equivalent to one-fourth 
of the total population; election monitoring in Jordan and 
Tunisia to give voters confidence in election outcomes; and 
parliamentary support programs in Iraq, Jordan, Tunisia, and 
Morocco.
    NDI also spends a lot of time emphasizing engagement with 
youth and marginalized groups like LGBTI persons. For example, 
Jordan's USAID-funded Ana Usharek, which means ``I engage'' in 
Arabic, a university- and school-based youth civic education 
program, involves over 24,000 students from 28 universities and 
330 public schools across the country. Ana Usharek's success in 
Jordan has spawned similar programs in Morocco and the West 
Bank that reach youth in their teens.
    To date, NDI's State Department-funded Regional Campaign 
Schools program has involved over 400 participants from 13 
countries representing 92 political parties. Thirty-two of 
these participants reported running for political office in the 
last 1\1/2\ years, with 10 winning, while another 21 reported 
running for other elected positions such as university bodies, 
unions, and political parties.
    NDI also continues its National Endowment for Democracy-
funded online Arabic language training site, Taalam/Sharek, 
which means ``learn and participate,'' which has had more than 
1.6 million visits and 132,000 materials downloaded since its 
launch just last year.
    The results of this modest investment: The countries that 
have chosen the route of reform have not generated hundreds of 
thousands of refugees, typically don't allow or host extremist 
groups and let them use their territory, and are not at war 
with the U.S.
    In an era of tight budgets, the U.S. Congress can rest 
assured that modest investments in democracy and governance 
deliver solid results.
    To that end, I would recommend: That the U.S. continue to 
invest in democracy programs in the countries that have made a 
long-term commitment to reform and which have shown positive 
results. That list includes, in my opinion, Morocco, Tunisia, 
Jordan, and Lebanon. And I look forward to discussing Lebanon 
further;
    That countries emerging from conflict, such as Iraq, enjoy 
increased support for the strengthening of inclusive 
institutions and structures of governance, which will help 
ensure that extremists do not regain a foothold;
    That democrats and local activists in countries in conflict 
like Yemen, Syria, and Libya continue to enjoy the support of 
the U.S. Government as they strive to create and sustain 
democratic subcultures at the local level while they wait for a 
national peace;
    That democracy programs enjoy multiyear funding streams 
that allow longer-term investments in programs and 
relationships and avoid the stop-and-go that often happens;
    That money approved by Congress for democracy programs be 
spent by the administration in an expedited fashion;
    That Congress and the administration protest unreasonable 
laws or limits on speech or organizing in civil society in the 
Middle East;
    And, finally, that USAID- and State Department-funded 
democracy and governance programs be extended to the Gulf 
region as well, with a particular emphasis in that region on 
encouraging equality of women.
    Thank you for allowing me and NDI to share these thoughts.
    [The prepared statement of Mr. Campbell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much.
    And now we will hear from Ms. Abdelkarim.

 STATEMENT OF MS. ZEINAB ABDELKARIM, REGIONAL DIRECTOR, MIDDLE 
 EAST AND NORTH AFRICA, INTERNATIONAL FOUNDATION FOR ELECTORAL 
                            SYSTEMS

    Ms. Abdelkarim. Madam Chairman, Acting Ranking Member Mr. 
Connolly, and distinguished members of the subcommittee, on 
behalf of IFES, I greatly appreciate the opportunity to share 
with you our Middle East and North Africa programs and discuss 
the greatest challenges to democracy in the region.
    IFES work in the MENA region focuses on building the 
foundations that are essential to the development of civic 
culture and effective, resilient democratic institutions. With 
support from USAID, MEPI, DRL, and international donors, we 
work with a wide spectrum of local partners. This includes the 
judiciary, the legislature, civil society, independent media, 
and the institutions responsible for managing the electoral 
processes.
    For example, in Egypt, Iraq, Jordan, Libya, Tunisia, and 
Yemen, IFES has supported electoral processes such as boundary 
delimitation, voter education, voter registration, vote 
counting, and out-of-country voting. In Lebanon, Yemen, 
Morocco, Libya, and elsewhere, IFES has assisted locally driven 
constitutional-building and election reform efforts.
    IFES has also worked on greater access to the political 
process for persons with disability, women, youth, and other 
marginalized groups in countries like Syria, Libya, Morocco, 
and Lebanon.
    Over the years, IFES has increased its collaboration with 
government and regional organizations, including the League of 
Arab States and the Organization for Electoral Management 
Bodies.
    We operate in extremely challenging environments, where 
widespread and deeply rooted political unrest continue to 
persist. Factors that played a major role in the 2011 
uprisings, such as unemployment, struggling economies, 
inadequate access to justice, and ineffective governance, are 
not sufficiently addressed. The breakdown in security and 
rising volatility caused by ongoing civil wars, the rise of 
extremist groups, and foreign intervention are daunting factors 
that do not promise stabilizations or democratic developments 
in the short term.
    Despite these challenges, there is still a widespread 
desire for fundamental democratic ideals. And despite violent 
and ruthless suppression, the people of the MENA region have 
not surrendered their democratic aspirations.
    Unfortunately, U.S. assistance to democracy and governance 
programming in the region has declined. We must reevaluate the 
way in which democracy is supported and sustained. Instead of 
short-term solutions, the U.S. must aim for a long-term 
democracy assistance strategy and continue to promote a broader 
notion of democratic governance that includes tolerance, 
consensus and peace-building, human rights protection, and 
capacity-building for social and economic development.
    Our strategy should be grounded in realistic expectations 
about the pace and the course of change. We must leverage 
existing international frameworks, bilateral agreements, 
diplomacy, and development to cultivate great space for 
prosperity, peace, and security.
    U.S. support for fundamental rights and democratic norms 
must be unequivocal. Therefore, pressure must be maintained on 
governing elites to be responsive and accountable to their 
citizens and to genuinely pursue democratic freedom, access to 
justice, and the rule of law, regardless of the governing 
system they choose to implement.
    Furthermore, democracy assistance must complement, but not 
be eclipsed by, counterterrorism efforts and military-to-
military collaboration.
    We ask the U.S. Congress to continue its support to 
democracy programming, especially when many countries in the 
region will likely see national and local elections in 2018, 
including Egypt, Lebanon, Iraq, Tunis, and possibly Libya, as 
strengthening national institutions will help to make elections 
more legitimate and responsive rather than destabilizing 
events.
    Last but not least, we continue to lean on Congress' 
support for robust funding levels for democracy programs and 
encourage you to leverage your oversight role in ensuring 
appropriations are obligated and spent.
    With that, I end my remarks and thank you, Madam Chairman, 
for the opportunity to testify. And I am happy to answer any 
questions that you might have.
    [The prepared statement of Ms. Abdelkarim follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much for coming.
    Dr. Herman.

     STATEMENT OF ROBERT HERMAN, PH.D., VICE PRESIDENT FOR 
INTERNATIONAL PROGRAMS, VICE PRESIDENT FOR EMERGENCY ASSISTANCE 
      PROGRAMS AND MULTILATERAL INITIATIVES, FREEDOM HOUSE

    Mr. Herman. Chairwoman Ros-Lehtinen and Acting Ranking 
Member Connolly and distinguished members of the subcommittee, 
on behalf of Freedom House, thank you for giving me the 
opportunity to testify here today.
    And, more importantly, let me convey my organization's deep 
appreciation for the subcommittee's strong bipartisan support 
for democracy, human rights, and governance programming in the 
Middle East and North Africa.
    And, Madam Chairwoman, your retirement after the current 
term ends will be a tremendous loss to our community. You have 
been a tireless and passionate advocate for this work.
    Let me also say how proud I am to be here with my esteemed 
colleagues from sister organizations that, like Freedom House, 
have the privilege of working with courageous and committed 
activists and dedicated public servants around the world, 
including in the MENA region, and doing so with the support of 
funding from the United States Government.
    Our ``Freedom in the World'' reports have chronicled a 
decade-long decline in freedom, while a recent report, 
``Breaking Down Democracy,'' unpacks the rise of modern 
authoritarianism that, at its core, is a systemic, 
sophisticated, collaborative, global assault on democratic 
institutions, norms, and values.
    The MENA region, among the world's most repressive, where 
only 1 in 20 people live in a country rated ``free'' by Freedom 
House, reflects this alarming trend. While it is unwise, as we 
have heard, to proclaim the Arab Spring a failure, especially 
as Tunisia struggles to build a democratic society, the MENA 
political landscape is grim. Between resilient, despotic 
regimes and countries engulfed in sectarian-driven conflict, 
people have little prospect of exercising their fundamental 
rights or organizing to bring about political change.
    Let me mention three interrelated impediments in the 
region.
    First, the closing of civic space is a strategy used by 
virtually every government in the region, often through the 
sharing of worst practices that prevent pro-democracy civil 
society to organize effectively to advance common interests. In 
countries such as Egypt, Bahrain, and Saudi Arabia, the goal is 
to crush dissent entirely. The authoritarian regimes use 
subservient judicial and legislative bodies to lend a patina of 
legitimacy to their repression. Stigmatization and vilification 
efforts using state-controlled mass media seek to undermine 
activists' credibility with the population.
    Second, the dearth of accountability of the ruling elites 
to the citizens is a consequence of the concentration of power 
and the comparative weakness of civil society and of the 
suppression of independent media that prevents these critical 
institutions from performing their watchdog role. A culture of 
impunity can galvanize pro-reform sentiment, but it also can 
leave citizens disillusioned and feeling they have no agency to 
influence decisions that affect their lives.
    Third, the rise of violent extremist groups, such as al-
Qaeda and the Islamic State, stems in no small part from the 
denial of fundamental freedoms and anachronistic political 
systems that fail to address the legitimate grievances and 
aspirations of citizens. MENA governments have used the genuine 
threat posed by these radical groups to crack down on peaceful 
political activity, frequently invoking anti-terrorism 
legislation to justify broad-based repression.
    Let me offer a few recommendations.
    First, Congress and the executive branch should work 
together to ensure that U.S. policy and strategy toward the 
MENA region emphasizes strengthening government accountability, 
protecting basic human rights, broadening political competition 
and participation. Democracy and human rights programs are much 
more likely to have impact if they reflect the overall U.S. 
policy priorities as well as our core principles and values.
    We must avoid the pernicious, false tradeoff between 
security and stability on the one hand and respect for 
fundamental freedoms and democratic norms on the other. Giving 
a pass to allies and security partners that block democratic 
reform and systematically violate rights and engage in large-
scale corruption erodes our moral authority and contributes to 
conditions that can fuel radicalization, impeding our ability 
to advance our national interests.
    Second, democracy and human rights governance funding 
should focus primarily on civil society and establish their 
nascent political parties as the most likely catalysts for 
nonviolent political change. Providing support to state 
institutions makes sense only where there is demonstrated 
political will to undertake meaningful reforms.
    And, at the same time, security assistance, a major source 
of U.S. Government funding in the region, should be conditioned 
on the would-be recipient government meeting a meaningful 
standard of human rights and democratic accountability.
    And, if I can, just one more. The U.S. should work with 
like-minded governments to press across the MENA region on 
issues of corruption and impunity, a combination that has left 
citizens angry and disillusioned and undermined their 
confidence in governing institutions. Sanctions regimes, such 
as the Global Magnitsky Human Rights Accountability Act, should 
be used whenever appropriate to hold accountable perpetrators 
of corruption and human rights violations.
    I look forward to your comments and questions. Thank you.
    [The prepared statement of Mr. Herman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Good recommendations from all of you. 
Thank you so much.
    I will start with you, Mr. Mastic. The Lebanese Prime 
Minister's decision to resign over the weekend has a lot of 
people worried about the future of Lebanon, as well as 
increasing regional tensions between Iran, Saudi Arabia. With 
Lebanon's parliamentary elections scheduled for May of next 
year, it would seem that we should be ramping up our democracy 
and governance efforts to ensure that moderate parties aren't 
getting pushed to the side by Hezbollah. What kind of U.S.-
funded democracy and governance efforts are you seeing in 
Lebanon right now? And are we prioritizing the democracy and 
governance aspect the way we should in advance of this 
election?
    Mr. Mastic. Thank you.
    I think what we have seen this weekend reflects the 
limitations of a notion of a national unity government when the 
main power player in that government is an illiberal, 
authoritarian movement that has compulsory force that it could 
utilize outside the bounds of state institutions. And so now we 
are sort of in a situation of limbo again about when and 
whether we will proceed to parliamentary elections.
    My concern is that, over the last several years, I have 
noted a pulling back from or reluctance with respect to U.S. 
assistance to support what I would consider to be key U.S. 
democratic allies in Lebanon. And I think, in many instances, 
it is because of this notion of trying to keep things in a 
stable situation and encouraging sort of a national unity 
approach, but, really, we have quickly reached a limitation on 
that, given the nature of the dynamics within Lebanon and the 
presence of Hezbollah. So what I would hope to see now is a 
redoubling of efforts in supporting political actors in 
preparing for parliamentary elections and specifically those 
that fall more in line with the interests and values of the 
United States.
    Ms. Ros-Lehtinen. Thank you so much.
    Ms. Abdelkarim, in your written testimony, you recommended 
that the U.S. should aim for a long-term democracy assistance 
strategy that is linked to counterterrorism deterrence. How 
does inconsistent democracy and governance assistance hurt us 
here in the United States? And if you could tell us, if the 
U.S. doesn't prioritize democracy and governance in the region 
and increase the public trust in the power of elections, what 
dangers do you see for democratic progress in that region?
    Ms. Abdelkarim. Over the years, the U.S. has limited its 
support--I should say, been very selective in the countries 
that it decides to give support to. The post-Saddam period in 
Iraq has proven to be filled with human tragedy, including 
violence, political instability, and growing civil war. The 
mistrust and the suspicions are very dominant features of the 
region's perception of the United States. Therefore, a long-
term strategy that focuses on providing support equally across 
the board to countries that are in dire need for our 
intervention and support will be key.
    You know, unfortunately, we will continue to be viewed as 
meddling in politics and interfering to change the political 
order. The backlash against democracy aid requires, you know, a 
building of trust and buy-in, and we should not seek to impose 
ourselves but, in fact, you know, seek to be invited to 
support.
    Ms. Ros-Lehtinen. Thank you so much.
    And, lastly, Dr. Herman, in your written testimony, you 
highlight the degree of collaboration and active exporting of 
worst practices in the current wave of repressive rule. What 
are some of those examples of the worst practices that you have 
seen in the Middle East and North Africa region? And to what do 
you attribute this new collaboration?
    Mr. Herman. Thanks. Well, in some ways, the Middle East was 
a latecomer to what I call the rise of modern authoritarianism. 
You have had, certainly, repressive, despotic governments in 
place for a long time, but this new phenomenon that we are 
seeing, which is, as I said, a little bit more sophisticated. 
Many of these governments around the world, leading 
authoritarian states, whether it is Russia, China, and others--
and now I would put Saudi Arabia and even Iran in that 
category--in most instances, what they have tried to do is 
stifle or, as I said, crush dissent and doing that cynically in 
using laws for that purpose.
    So there is, as I said, a patina of legitimacy. They think 
by using these institutions that have been compromised and are 
subservient to authoritarian power--in this case, either to the 
royal rulers or to authoritarian governments--that is the way 
of doing it. And then there is an active effort to export 
these. And so what you will see oftentimes is these 
metastasize, like a cancer, across the world. This is not just 
a passive diffusion of ideas. There is, as we say, an 
authoritarian playbook, where people are meeting, discussing, 
and strategizing together. And part of the problem here is that 
the democratic governments in the world have been slow to 
recognize that and, I think, to recognize the challenge that is 
posed by this more concerted effort.
    Ms. Ros-Lehtinen. Thank you, Dr. Herman. Thank you so much.
    And I would like to ask Ambassador Wagner to take over 
chairing this subcommittee because I have to go to the 
Intelligence Subcommittee. Thank you, Mr. Connolly.
    Mr. Connolly. Thank you.
    Mrs. Wagner. [presiding.] I thank you.
    And we will now turn to our ranking member, Mr. Connolly, 
for his 5 minutes of questioning.
    Mr. Connolly. I thank the chair.
    And to your point, Mr. Mastic, about Lebanon, I would note 
that in the previous administration the budget for Lebanon was 
$213 million in foreign aid, mostly economic and democracy 
projects. This administration has cut that to $103 million--
less than half. And I mentioned in my opening statement that 
the budget for democracy assistance in the region was cut by 
more than 40 percent--or would have been cut by more than 40 
percent in the Trump budget request. So let me ask you, Mr. 
Campbell, and you, Mr. Mastic, in particular, a 40-percent-plus 
cut, does that affect your operations in the region, or can you 
just suck it up? Does it have substantive impact?
    Mr. Campbell. It has substantive impact. And, in fact, I 
had mentioned Lebanon. Maybe it will be a big topic of 
discussion today. The numbers you gave, I am sure they are 
exactly the case. But there has been no support for political 
party training or elections support in Lebanon, even with the 
specter of an upcoming election.
    As Scott said, there is a lot to be done, and there has, up 
until now, been no support. There has been support for other 
democracy-type programs, which are the, you know--that are 
good. I am not criticizing them. But 40 percent across the 
region, which didn't happen, luckily, would have decimated our 
programs. Most of the programs that we described are, you know, 
very small: $500,000, I described----
    Mr. Connolly. Right.
    Mr. Campbell [continuing]. State Department-funded 
programs, $300,000, $700,000. This is very little money. So a 
cut like that would be devastating.
    Mr. Connolly. Mr. Mastic?
    Mr. Mastic. Yeah, so beyond the across-the-board decrease 
in the administration's request, I think it is more useful to 
look at how we are utilizing the money and the targets of 
opportunity for where we are utilizing it.
    Mr. Connolly. Yeah, but, Mr. Mastic, that is not my 
question. My question is: Would it affect your operations on 
the ground in the region if you had to absorb a 40-percent-plus 
cut, if that is what this cut translated into?
    Mr. Mastic. It honestly depends on what countries we are 
utilizing the money in and where the cuts are. Because in the 
budget request that was given, in some instances there were 
increases in countries in this region.
    Mr. Connolly. I think----
    Mr. Mastic. So it depends on where we are implementing 
programs----
    Mr. Connolly. Right.
    Mr. Mastic [continuing]. And how that money----
    Mr. Connolly. Some countries, more; some countries, less. 
Sure. I think it is important to know that, with both IRI and 
NDI, it is not just your specific projects or programs on the 
ground, but there is a nexus that gets created by your 
presence. So there is an NGO nexus, there is a civic engagement 
nexus, there is even a business nexus attracted to this magnet 
of democracy-building. And when you cut that or eliminate that 
or jeopardize that, lots of other things are affected in the 
ripple effects, I think you would both agree.
    Mr. Mastic. Yes.
    Mr. Connolly. Let the record show both agreed.
    Dr. Herman, should we be worried about Tunisia? Tunisia is 
often cited as the one example out of the Arab Spring that kind 
of went the right direction. And after the fall of Ben Ali, you 
know, we see democratic institutions, we see multiparty 
participation, we see changes in society. And yet there seems 
to be some backsliding. I mean, the government indefinitely 
delayed long-planned local government elections, which really 
bothers somebody who comes from local government, who believes 
that is where the seeds of democracy are planted, and then the 
resignation of the National Election Commission leadership, 
largely due to political influence, we think. Is Tunisia in 
trouble? Is our hope for Tunisia perhaps illusory?
    Mr. Herman. I don't think it is illusory, but if there is a 
lesson that we can learn from what we have seen elsewhere 
around the world, that even consolidated democratic countries 
can experience backsliding, as we have seen in many places. And 
so, if there is a lesson there, you can never take for 
granted--and those are in consolidated democratic societies, 
which Tunisia certainly is not. So, yes, there has been 
tremendous progress, but, in order to keep going, yes, I think 
we should be concerned. What happens in Tunisia, a small 
country with outsized influence in the region--because it is 
absolutely critical that there is success in Tunisia in terms 
of moving forward for democracy, because they will be a beacon 
in the region. So the answer----
    Mr. Connolly. I couldn't agree----
    Mr. Herman [continuing]. Is yes----
    Mr. Connolly. All right. I am sorry for--I am running out 
of time. That is why I am cutting you off. I couldn't agree 
with you more, but let me just cite, since I am kind of fixed 
on these Trump budget numbers, the Trump budget would have cut 
democracy assistance to Tunisia almost in half. Would that be 
helpful?
    Mr. Herman. No, I don't see that it would be helpful if 
there are fewer resources. Of course it depends what kind of 
programming they are going to and the rest. But no, of course, 
resources in the case of an instance like Tunisia, absolutely 
critical. But so is U.S. policy to make sure that----
    Mr. Connolly. Sure.
    Mr. Herman [continuing]. We are doing everything we can to 
support them in their effort to move forward democratically.
    Mr. Connolly. All right. In the interest of time, let me 
move on to another subject. I met with representatives of a lot 
of the people at this table and others--young, bright, 
idealistic Egyptians in Cairo a few years ago. And they were 
under arrest under the previous government, and they haven't 
been treated much better under this government, under el-Sisi.
    You know, we talk about democracy-building and so forth. 
There was a lot of rationalizing about the coup that overthrew 
the previous elected government, even though we didn't like the 
fact that it was a Muslin Brotherhood government, and we 
replaced it with a government that, you know, mowed down 817 
men, women, and children in one of the deadliest mass killings 
by a government in recent times and a constant crackdown on 
democratic institutions. What is the status of especially local 
Egyptians who participated with us? I have been very concerned 
that we never give the signal that we care more about the 
American employees than we do about our local, because they put 
their lives on the line. And I just wonder, in the time left, 
if the two of you, particularly, would comment. And I don't 
know whether Dr. Herman has a comment as well. Where are we in 
Egypt with our locals who have put themselves on the line for 
democracy-building?
    Mr. Mastic. Thank you for that question. I will start and 
be brief. So there is no change in status since the June 2013 
convictions of our organization, NDI, Freedom House, and two 
other organizations in Egypt. So 43 persons were implicated in 
that trial, commonly known as the NGO trial. As of now, they 
remain in the same sort of situation or status since that 
conviction, which is: Convicted to 5 years in prison, with hard 
labor. Thankfully, no one is actually in prison, because they 
were convicted in absentia. The thing I would add, I think, is 
that the case itself that was utilized to put these persons on 
trial remains open, and so it is continuing to be used in going 
after Egyptian NGOs, primarily, now. So not only is our 
situation not resolved, but the case itself is utilized to 
continue to go after Egyptian NGOs.
    Mr. Campbell. If I can add just something briefly, a fact 
that probably most don't know is that, of the 43 people that 
were convicted in what are called the NGO trials, the vast 
majority were non-American. Fourteen were American, and the 
rest were Egyptian and other nationalities, most of them 
Egyptian. Appeals were filed on behalf of those employees. The 
appeals have never been brought forward by the Egyptian courts 
or heard. So the Egyptians are purposely keeping the whole 
thing in limbo, basically as a message to sort of back off NGOs 
and civil society. So it is still very much a going concern.
    Mr. Connolly. Thank you, Madam Chairman, for your 
indulgence.
    And thank you.
    Mrs. Wagner. I thank the gentleman. His time has expired.
    And I am pleased to take over the chairmanship of this 
subcommittee at this time while our chair, Ileana Ros-Lehtinen, 
is in Intel. And I want to thank you all for being here today. 
Beyond critical national security concerns, promoting democracy 
and human rights is the most important objective of American 
diplomacy and aid. I appreciate the work that your 
organizations do in advancing American values across the world, 
and I am grateful that you made time to be here today. I would 
agree with Mr. Mastic that the lack of democracy and the 
prevalence of poor governance cause conflict across the Middle 
East and in North Africa. Fragile, failing, and authoritarian 
states pose serious political and security dilemmas. And it is 
very difficult for civil societies to make their voices heard 
in the MENA region.
    Mr. Mastic, you wrote that advancing women's empowerment is 
an important step in promoting democratic gains in the Middle 
East. To you and perhaps to Ms. Abdelkarim, what progress or 
obstacles have your organizations seen on the ground regarding 
women's empowerment issues and allowing women to play a 
meaningful role in Middle East governments?
    Mr. Mastic. Thank you. Well, for one thing, I think it is 
important that we sort of acknowledge or cite gains when they 
occur. And a couple of important things have happened recently, 
including very forward-leaning violence-against-women 
legislation that was passed in Tunisia, some changes in Jordan 
and Lebanon with respect to inheritance rights. So those kind 
of things matter, I think, and are some positive signs about 
how there is social change occurring in the region.
    With respect to the obstacles, though, of course, there 
remain sort of, like, deeply embedded social/cultural obstacles 
to the idea of women's leadership in the public space. And, in 
many instances, women are sort of sidelined from having a seat 
at the table, especially on things that sort of extend beyond 
the realm of what people consider to be women's issues in the 
region. So part of our strategy has been to try to empower 
women as leaders in every sphere, every sector, including sort 
of, like, economic--on economic issues, on defense and security 
issues, on various types of political leadership and thought.
    Mrs. Wagner. Okay. Ms. Abdelkarim, could you comment, 
please?
    Ms. Abdelkarim. Sure. If we looked across the region, the 
legal frameworks for election across the board continue to 
improve to increase the women's political participation. 
However, it is very limited, and political parties continue to 
push for male candidates, knowing that the likelihood of them 
securing a certain constituency would be more possible if they 
run with male candidates. Nonetheless, you know, progress is 
happening slowly.
    Just recently, you know, from the meetings that I had in 
Lebanon, to answer to Mr. Issa, it was shocking to us to see 
that the election law that was passed earlier this year have no 
quota or reserved seats for women and leave it fully for the 
political parties to determine, you know, the ranking of the 
women in their lists. That, indeed, is going to limit the 
number of women that are going to be selected for the next 
Parliament. And, also, we have seen countries like Egypt 
eliminated quotas that they had in the past. Despite these 
limitations, you know, we see improvement on the women's 
movements and advocacy, you know, greater than it used to be.
    Mrs. Wagner. I have limited time. Ms. Abdelkarim, you also 
wrote about IFES' civil engagement platform----
    Ms. Abdelkarim. Yes.
    Mrs. Wagner [continuing]. That focuses on Syrians who are 
now living in Turkey. One piece of that was the women's forum. 
Can you discuss how the women's forum operates and what its 
goals are?
    Ms. Abdelkarim. Okay. The women's forum is basically a 
group of women that we engage with through our local civil 
society groups, working on building their capacity to ensure 
that they would play an effective role in advocating for their 
rights, especially when, you know, the time comes for looking 
into putting the legal framework for the country in the future. 
We also ensure that they have a safe haven for exchanging, you 
know, ideas and information, that they could, you know, 
advocate more effectively through the leaderships of the 
oppositions that are leading the conversations in Turkey and 
Gaziantep.
    Mrs. Wagner. I thank you.
    Dr. Herman, I have run out of time. I am so appreciative of 
Freedom House's work in the civic space. And I wonder if in 
writing you could respond to, you know, how can USAID and the 
State Department, sir, better include and aid civil society 
participation in some of these conflict zones.
    [The information referred to follows:]
Written Response Received from Robert Herman, Ph.D., to Question Asked 
             During the Hearing by the Honorable Ann Wagner
    The short answer is yes, so long as such encounters do not place an 
activist or organization at greater risk, a determination that they 
must make. Symbolic acts can matter quite a lot. In general, democracy 
and human rights advocates deeply appreciate and covet public 
expressions of support and solidarity because it can bring greater 
legitimacy to their work and often provide a counter-narrative to the 
vilification and stigmatization efforts undertaken by the authorities 
via state-controlled media. Meetings between US diplomats, senior 
administration officials or Members of Congress and embattled activists 
are also powerful statements to the target government that the U.S. 
stands with them as they seek to exercise their fundamental rights and 
bring about political reform. Such demonstrations of support will be 
more impactful if seen by the various actors as part of a larger policy 
to advance democratic freedoms and accountable governance.
                               __________

    Mrs. Wagner. With that, my time has expired, and the Chair 
now recognizes the gentleman from California, Mr. Rohrabacher, 
for 5 minutes.
    Mr. Rohrabacher. Thank you----
    Mrs. Wagner. Oh, I am terribly sorry. I am sorry. The Chair 
now recognizes----
    Mr. Connolly. We are still here.
    Mrs. Wagner. How could I miss you, Mr. Connolly? Yes, yes. 
The Chair now recognizes the gentleman from Rhode Island, Mr. 
Cicilline, for 5 minutes.
    Mr. Cicilline. Thank you, Madam Chair. Thank you again to 
our panelists.
    Dr. Herman, I want to start with you. When President Trump 
takes high-profile meetings with leaders like President Sisi of 
Egypt, President Erdogan of Turkey, and King Salman in Saudi 
Arabia and fails to bring up issues of human rights or 
democratic governance, what message does that send to the 
region, both to the people and to other leaders? And, in your 
experience, has there been any shift in perception on the part 
of regional leaders in terms of the U.S. expectations in 
regards to the protection of human rights since President Trump 
took office as a result of both his statements and the failure 
to raise these issues in high-level meetings?
    Mr. Herman. Thank you for that question. I know we talk a 
lot about programs and funding that goes to programs that we 
implement, but sometimes these sym---and they are not just 
symbolic, but the meetings that leaders have--I would say, that 
our leaders have with their counterparts, it is absolutely 
critical that these issues be raised. It sends the right signal 
both to those governments that this is something that is 
absolutely essential to American values and all that, but it 
also sends a very hopeful message to the activists on the 
ground, who are putting their lives on the line, that we have 
their back, that we are supporting the work that they are 
doing, we are raising this, we are talking, we are raising 
these issues with those governments. Absolutely critical. It is 
not a substitute for programs; it is not a substitute for good 
policy. But it has to be a--and we should be encourage our 
Ambassadors and others to do that, assuming that that is 
something that, given the crackdown we are seeing on civil 
society, that that embrace is not going to be 
counterproductive.
    Mr. Cicilline. But I guess my question is, knowing that, 
have you seen a shift in perception in the region by this 
administration and this President in particular, his failure to 
raise those very issues in those high-level meetings?
    Mr. Herman. I think there is a lot of concern that the U.S. 
has both, I would say, even more broadly, is retreating from 
its global leadership role but also how that then redounds to 
the country level and not raising it as much, yes.
    Mr. Cicilline. Thank you. And, Mr. Campbell, just to follow 
up on Egypt for a moment, how would the newly proposed NGO law 
impact civil society and media organizations in Egypt? And, 
with the imposition of this law, would the United States be 
able to maintain foreign assistance on these issues to Egypt 
and still be in compliance with the Brownback Amendment, which, 
of course, states that foreign governments may not control our 
democracy assistance?
    Mr. Campbell. Well, first of all, the new law codifies what 
was really happening under the old law, which is that, unless 
the Egyptian Government agreed with your program, you weren't 
going to get a registration, is the basic idea. You run the 
programs by them first, get full agreement. And, of course, if 
you did that, that meant for sure that you wouldn't be meeting 
with anyone that was remotely opposition, you wouldn't be 
dealing with civil society organizations that were human-
rights-oriented, et cetera. In my opinion--I am not a lawyer, 
and I don't study this, but I think just the fact that it is 
required to have your program run by the authorities first for 
their approval would run afoul of the Brownback Amendment. That 
seems quite obvious.
    Mr. Cicilline. Uh-huh.
    Mr. Campbell. And the other problem with the law is that it 
is so unclear as to how you can appeal things or move things 
forward that it allows the Egyptian Government to leave NGOs in 
limbo, and inevitably they get in trouble because they don't 
know, you know, what is allowed and what is not allowed.
    Mr. Cicilline. And I don't know--I would just ask this next 
question. With almost a dozen Saudi royals reported arrested 
over the past couple of days for what has been described as 
corruption, it naturally raises the question of what legal 
system is in place in Saudi Arabia to even charge officials 
with corruption. Can anyone on the panel shed any light on 
this? Mr. Herman?
    Mr. Herman. I don't know specifically in the Saudi case, 
but we can't pretend that these countries and governments are 
rule of law. It is the rule by law, not the rule of law. So the 
idea that we go through this and--I don't know what is 
happening there, but we have seen this time and time again, 
that anticorruption laws are used to go after one's political 
opponents rather than really address the root causes of the 
corruption. I don't know if that is the case in Saudi Arabia.
    Mr. Cicilline. Mr. Mastic, you looked like you were----
    Mr. Mastic. So it is always a, sort of, challenge to 
understand the timing and motivations behind certain things 
that happen within the Saudi Kingdom, especially when it 
relates to the royal family, right? The one thing I would say 
is simply: What we have noted is that there is widespread 
concern and public dissatisfaction across the region--we have 
seen this in opinion polling and other places--about the issue 
of corruption. It is a palpable issue that is undermining the 
legitimacy of government and leadership. And so, in many ways, 
not fully knowing the motivation, one just sort of understands 
that it could occur at this time and that it is responsive, I 
would argue, to certain things that are going on in the 
Kingdom.
    Mr. Cicilline. Thank you. I would just ask, Madam Chair--I 
know my time has run out, but I would ask the members of the 
panel if they could provide a written answer describing the 
situation for LGBT individuals generally throughout the region. 
We talk a lot in this committee about the targeting of LGBT 
individuals by ISIS, which is horrific, but the truth is that 
the entire region, with the exception of Israel, is a very 
harsh and even dangerous climate for those who seek to protect 
the rights of LGBT individuals. So I would love to hear from 
the panel in as much detail as you can on the current 
situation. And, with that, I yield back.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

Written Response Received from Ms. Zeinab Abdelkarim to Question Asked 
          During the Hearing by the Honorable David Cicilline
    Although the International Foundation for Electoral Systems (IFES) 
promotes inclusive democracy and the democratic rights of all people, 
IFES does not currently have a program targeting the human rights of 
LGBT persons in the Middle East and North Africa (MENA) region. 
However, generally, the struggle for equal rights and protections for 
LGBT individuals in MENA is embedded in the broader movement for 
democracy, freedom and human rights in the face of conservative 
religious forces in the region. Homosexuality is a crime in many MENA 
states and is punishable by death in Sudan, Saudi Arabia, Yemen, Qatar, 
and Iran. Systemic data is difficult to obtain in many countries in the 
region, however hate crimes, state-sponsored violence and chronic abuse 
of LGBT individuals are widely reported. Amnesty International 
estimates 5,000 gays and lesbians have been executed in Iran since the 
1979 revolution. In Egypt, homosexuality is not illegal, however 
hundreds of LGBT individuals have been arrested since the 2013 ousting 
of president Mohamed Morsi, on grounds of ``debauchery'' (which carries 
a jail term of up to 17 years). Violence against LGBT people under the 
Islamic State profoundly violates human rights. Testimony to the UN 
Security Council has recorded reports of systemic torture and murder of 
suspected homosexuals under al-Qaeda in Iraq and ISIS in Syria.
                               __________
Written Response Received from Robert Herman, Ph.D., to Question Asked 
          During the Hearing by the Honorable David Cicilline
    The Arabic speaking Middle East and North Africa (MENA) is a 
diverse region, and the laws and treatment of LGBT people in the 
various countries that comprise the region is equally diverse.
    Overall, the social context and legal situation for LGBT people is 
repressive, with more than 14 countries explicitly criminalizing 
homosexuality and 6 of these countries penalizing homosexuality with 
the death penalty in all or part of the country. Furthermore, the 
climate of impunity means that LGBT people may be socially ostracized 
or face physical harm from families or the general community.
    Despite this climate, there are active LGBT organizations in a 
number of the countries in MENA, and at least one regional 
organization, based in Lebanon, that supports these LGBT organizations 
and works across the region on ``sexuality, gender, and bodily 
rights.'' The vibrancy of these organizations, as well as some of the 
positive legal and social gains is also part of the context of being 
LGBT in the Arabic speaking MENA region.
    With regard to the criminal and judicial landscape, it varies from 
repressive to more permissive. For example, the legal situation in 
Lebanon is more open. While Article 534 of the Penal Code criminalizing 
sexual relations that contradict ``the laws of nature'' is technically 
still on the books, a series of court rulings means that the police and 
judges are unlikely to enforce this law. The Lebanese Psychiatric 
Society declassified ``homosexuality'' as a disease in 2013. In 2016 
Court of Appeals in Beirut confirmed the right of a transgender person 
to change official papers, but only after undergoing surgery.
    On the other hand, as noted above, almost \3/4\ of the countries in 
the region explicitly criminalize same-sex sexuality, some imposing the 
death penalty. The judicial implementation of these laws vary; in Iran, 
executions are not infrequent. In other countries with the death 
penalty, such as Saudi Arabia, Sudan, Yemen, and Mauritania, executions 
have not been reported in more than a decade, but 'homosexuals' and 
transgender people are widely viewed as immoral and criminal, and can 
be punished by flogging, fines, or imprisonment.
    The presence of ISIS in some parts of the region has meant that 
some men suspected of being gay or transgender have been executed by 
the group, and has increased the level of terror among members of the 
LGBT communities in regions where ISIS is present.
    The overall climate of impunity as well as the belief that being 
``homosexual'' or transgender is immoral, means that some LGBT 
individuals may face exclusion from families, physical attacks from the 
community, forced marriage, ``corrective rape,'' or honor killings if 
they are known or suspected to be gay or transgender.
    Forced anal testing for ``homosexuality'' is another practice that 
is still utilized by police and medical professionals in some 
countries. According to Human Rights Watch, in Egypt and Tunisia, 
medical personnel have been involved in subjecting men and transgender 
people who are arrested for ``homosexuality'' or ``debauchery'' to 
barbaric and discredited forced anal exams to ``prove homosexuality''. 
Such forced exams violate the Convention Against Torture, have no 
medical justification, and can cause profound trauma.
    Egypt made headlines during the last two months with a crackdown on 
the LGBT community; more than 62 people, mostly men but a few women, 
have been arrested since a rainbow flag was raised during a concert on 
September 22, 2017. While some of those detained have been released, 
several of these people have already received prison sentences of 
several years for charges such as ``incitement to debauchery.'' The 
cases are currently being appealed. The Egyptian parliament is also 
considering a bill to explicitly criminalize same-sex relations; 
currently arrests are made under other pretexts. While this particular 
crackdown has not yet sparked similar actions in other countries in 
this region, these types of public crackdowns can sometimes have ripple 
effects.
    Despite the sometimes hostile social and legal climate, vibrant 
LGBT organizations are also present. For example, in countries such as 
Tunisia, Lebanon, and Jordan, organizations organize social events, do 
advocacy for rights, and provide direct services to LGBT community 
members. In more repressive countries, online groups connect 
individuals with one another, and with a larger LGBT community. Groups 
in Beirut organized the first Pride week this year, including public 
events and parties. In Tunisia, one group conducts a large public 
feminist arts festival that also includes people with non-normative 
gender and sexual identities. Rights-based organizing has seen progress 
in some countries, such as Lebanon, and the presence of these groups in 
countries from Iraq to Morocco demonstrates the resiliency of 
communities and organizations.
                               __________

Note: No response was received from Mr. Scott Mastic prior to printing.

                               __________
    Mrs. Wagner. The gentleman yields back.
    The Chair now recognizes the gentleman from California, Mr. 
Issa, for 5 minutes.
    Mr. Issa. Thank you, Madam Chair.
    And I am going to live up to my promise on Lebanon, but, 
Dr. Herman, to paraphrase a statement from ``Casablanca,'' are 
you shocked there would be corruption in Saudi Arabia? No.
    Mr. Herman. No, of course not.
    Mr. Issa. Okay. So the possibility, in addition to all the 
other possibilities, is that in Saudi Arabia corruption by 
high-ranking people in the government-slash-royal-family 
certainly was possible.
    Mr. Herman. No question, yes.
    Mr. Issa. I look forward to seeing it.
    Similarly, the statements that have been made about 
Lebanon, that Lebanon's corruption, if you will, was rising 
very quickly--ma'am, you are shaking your head ``yes.'' Would 
you--you seem to be aware of the challenges going on over these 
last couple of years in Lebanon, specifically in the area of 
corruption, and then I want to get into election law.
    Ms. Abdelkarim. Sure. Concerns are rising, for example, on 
the procurements for the elections. That is where I shook my 
head. There is concern that the procurement processes that the 
government takes are not open and transparent and they lean 
toward sole-sourcing of certain, you know, businesses. So I 
totally agree. And that concern is widely spread among, you 
know, the stakeholders.
    Mr. Issa. Yeah.
    Now, briefly, the change in the election law in Lebanon, 
which is one of the subjects of concern for the two democracy 
organizers, if you will, the election law in Lebanon has worked 
for many, many years, as flawed as it is. The new election law, 
would you fairly characterize it as a form of gerrymandering? 
Not that the old one wasn't.
    Ms. Abdelkarim. Yes.
    Mr. Campbell. You know, I will start on this.
    First of all, the old election law had--to say that it was 
flawed is an understatement, because there were no written 
ballots, and the fact that a person could bring in a blank 
piece of paper of their own, any kind of paper, and write in 
the name of the candidate, without question, led to all sorts 
of voter fraud----
    Mr. Issa. Oh, yeah. It was practically like Chicago.
    Mr. Campbell [continuing]. No question.
    The new law, yes, I mean, I have received information that 
shows that it would probably favor, perhaps, one side over the 
other. However, it was agreed to--there were improvements in 
the law.
    What I was hoping was that we would have a debate about the 
law and have improvements prior to the election. I mean, the 
fact that it seems, as Scott mentioned earlier----
    Mr. Issa. Is there still time for that? Assuming, for 
example, that Lebanon recognizes that our aid and our support 
is going to be contingent on free and fair elections, including 
a fair allocation of, if you will, district--because it is a 
district-based system, it holds open the possibility that you 
draw the lines, you draw the results.
    Mr. Campbell. There is time. And I think that there is a 
debate, there is an open debate. I think, with General Aoun as 
President, you have some parts of the Lebanese community, 
particularly the Christian community, thinking that they will 
get more fair representation. There have been analyses that 
show that Hezbollah and their allies might, you know, be 
favored by the election law. I think it is an ongoing debate. 
There is more than enough time to change it.
    The shame of this whole situation would be, in my opinion, 
if a Parliament which was last elected in 2009 and has really 
lost any kind of momentum or legitimacy ends up being a 
casualty of this. People are desperate in Lebanon, as you know, 
for change and some forward momentum there.
    Mr. Issa. Briefly, because I want to follow up on Egypt. Go 
ahead.
    Mr. Mastic. Yeah, sure.
    I do think there is time.
    One of the things I will say about an advantage with the 
election law change is that I think it provided some 
opportunity for new independent voices and actors to come into 
the electoral competition space. And that is positive in the 
sense that it is generating more dynamism in the political 
debate.
    And so, if there is additional change, I would hope that it 
at least sort of preserves a system that allows for new 
independent movements and actors to sort of come into the 
electoral competition.
    Mr. Issa. Well, and that is something that I think we in 
the United States would assume that we favor in a parliamentary 
system.
    But let me switch to Egypt for a moment. You were involved 
in that. I will note Mr. LaHood's presence as one of the 
individuals caught up in that challenge.
    We had full access in Egypt. We were allowed to--both of 
your organizations were allowed to freely operate in Egypt. And 
you had years of building, if you will, these political 
organizations, mostly intellectuals who formed, if you will, 
third parties, and yet it collapsed and collapsed fully when 
the Muslim Brotherhood came in and swept the election, and 
doesn't exist today.
    So my question to you, with the time that the chair might 
give me: If we had that opportunity in Egypt again, how would 
we do it differently so that those programs would yield real 
political organizations that had staying power to actually have 
an effect?
    Because we had the opportunity; we had years. Hosni Mubarak 
gave us those years. And it did us no good when those elections 
occurred, in my opinion.
    Mr. Mastic. So I think some of the response on what we do 
differently is about implementation. Some of it, frankly, is at 
a higher policy level with respect to, for example, what the 
U.S. State Department and through our Embassies is saying to 
the Egyptian leadership, irrespective of who that is.
    On the implementation side, I do think that a greater focus 
on sort of leveling the political landscape between competitors 
would have been helpful for the electoral competition element. 
I don't know that any programming would have, say, produced a 
different outcome in the first election because of the dynamic 
of the Muslim Brotherhood entering the electoral competition 
for the first time. I do think that there could have been much 
more vocal policy rhetoric with respect to a democratic 
backslide once the Muslim Brotherhood was elected and in the 
way Morsi governed and a more redoubled effort on helping new 
political entrants and building new parties.
    Mrs. Wagner. The gentleman's time has expired.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Madam Chair.
    I thank all of you for your testimony.
    And so let me pick up there, Mr. Mastic, with--no, 
actually, you are right, Madam Chair. You are right.
    And so, Mr. Mastic, let me pick up there, because we keep 
talking about the Muslim Brotherhood, we talk about Hezbollah, 
we talk about Hamas and their infiltration into the election 
process as a legitimate party. And yet Dr. Herman was talking 
about it not being the rule of law but, I guess, ruling by law. 
And what happens is, with the State Department's inability to 
acknowledge, maybe, the Muslim Brotherhood as a terrorist 
organization, it sends a conflicting message, as if it is a, 
what in the West we would think is just a legitimate party with 
a different focus.
    Do you not see that we send conflicting messages as it 
relates to some of this? Whether it be in Egypt or whether it 
be in Lebanon with Hezbollah, are we sending conflicting 
messages?
    Mr. Mastic. I think one of the challenges about this is 
Islamism encompasses a huge range of actors and perspectives. 
And just one data point I would offer is, in Tunisia, there, 
the Islamist party is actually working in a coalition 
government with the primary secular party and has proven to be 
very prudent in the way that it has approached the democratic 
transition----
    Mr. Meadows. So what is the difference? Because I agree. 
And if you look at Tunisia, you can look at, from a coalition 
standpoint, a very positive direction that we are seeing. So 
what is the difference? When does it slip from an ideological 
point of view to, what I would say, an activist point of view 
that has a very different outcome?
    Mr. Mastic. Yeah. Well, I think one of the key differences 
in what we saw in Egypt is that the Egyptian Muslim Brotherhood 
proved to be a highly authoritarian, illiberal actor once it 
was elected to power.
    Mr. Meadows. So why didn't we condemn that more 
vociferously than we did?
    Mr. Mastic. Those would be questions that you would have to 
pose to the----
    Mr. Meadows. Well, then why----
    Mr. Mastic [continuing]. Decision-makers at the time.
    Mr. Meadows. Well, then my question comes to this 
administration, because largely we are silent on that too. This 
is not a Democrat or Republican--we have been silent on it. And 
at what point are we going to start to speak out about what is 
legitimate and what is not, instead of pretending that somehow 
we ignore the obvious?
    And we are seeing it play outright now in Lebanon in a 
different way, but, because we have been ignoring it and it has 
been relatively peaceful in Lebanon, we ignore the presence of 
Hezbollah and their influence in the region.
    Mr. Mastic. Right. And, ironically, of course, Hezbollah is 
a designated foreign terrorist organization under the U.S. law.
    So I think the best response I could try to give here is 
simply that part of it is looking at the actual ideology and 
behavior, actions of the group, and part of it gets into a 
realm that is far outside of, sort of, my knowledge, which is 
financing and where the support comes from. Persons over at the 
Department of Treasury are, sort of, best to deal with that.
    Mr. Meadows. Listen, but this is different. And let's look 
at the Muslim Brotherhood specifically, because this is very 
different. I was an author of the Hezbollah's--you know, the 
sanctioning bill, so I get the financial side of it. But what 
you are dealing with is not finances. What you are dealing with 
is democracy, and it has nothing to do with the finances. And 
until we start to actually articulate our concerns, you are 
going to have these, you know, abnormal issues that we have to 
address.
    You know, the gentleman from Virginia was talking about 
funding. Listen, I have been one that has advocated on funding 
on your behalf from a foreign policy standpoint. But if you are 
going to be anemic with proper assessment, you know, there is 
no sense to have you around.
    And I am saying, coordinating that with the State 
Department, the message needs to be clear. It is time that we 
start acknowledging the obvious.
    Wouldn't you agree, Mr. Campbell?
    Mr. Campbell. Yeah, I agree in most senses. One of the 
things that I think we need to do is make sure that parties 
that have not renounced violence or that have violent wings 
aren't treated as just normal competitors in elections, which 
is----
    Mr. Meadows. Thank you. And I think that that is exactly 
where we need to go with this. Because here's what I have been 
troubled with, is that at times--listen, we are all about 
freedom, and we are all about free speech, and we are all about 
a competition of ideas. But the minute that you start putting 
in the violence that is accompanied with that, you miss out.
    Wouldn't you agree, Dr. Herman?
    Mr. Herman. Yeah, I absolutely agree. I think that is the 
critical point, that these parties have to be committed to 
peaceful participation, peaceful processes.
    And I would also say, though, that we should also be 
spending time worrying about and trying to find out why are so 
many people in those societies drawn to those who would not 
renounce violence as a way of bringing about political change? 
And that goes back to the idea of inclusion and giving people 
an ability to participate in a political system that they can 
change it without resorting to violence.
    Mr. Meadows. Well, and that is, as our democracy would say, 
is protecting the rights of the minority. And when you do that, 
it has good results.
    Thank you, Madam Chair. I yield back.
    Mrs. Wagner. The gentleman yields back.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Chabot, for 5 minutes.
    Mr. Chabot. Thank you.
    Just going back to the last answer--and I want to, first of 
all, apologize for being here a little late. I had a Small 
Business hearing and a Judiciary hearing, and so I have missed 
much of what has happened. So if I am repeating anything that 
has already been said, tough luck. No, I am sorry. I apologize.
    But going back to why are people drawn to, kind of, violent 
ideologies, Dr. Herman, if I could go to you with that, and 
anybody who would like to answer, for that matter--and that 
certainly seems to be the case in some of the recent history we 
have seen, particularly in the Middle East.
    The previous administration pulled out of Iraq. And I had 
been there, you know, a number of times. And when we were 
talking to our military personnel there, our Iraqi 
counterparts, to virtually anybody, there was always this 
concept that a certain level of troops would be left there for 
a period of time, anywhere from 10,000 to 15,000 to 20,000 or 
so. And, ultimately, that is not what happened, and I would 
argue that we saw the results of that, which was the rise of 
ISIS. And the country, which I think--probably Baghdad would 
have fallen, had the administration and our allies in the 
region not finally stepped forward and did something--they 
didn't do enough, and it took far too long, but ultimately we 
see, you know, recently, ISIS is falling, although, you know, 
they are like rats. They go into other parts of the region, and 
they are going to have a mischievous 2 weeks where there is 
going to be horrific action as a result of their being all over 
the place. But the point is, when we pulled out, it didn't take 
too long for Iraq to fall.
    If we pulled our troops out of Afghanistan--the 
administration is not considering that, I don't believe, but if 
we did--because a lot of Americans, I think--you know, we are 
tired. We have been there for a long, long time. We still are 
losing our men and women there. If we pulled out, how long 
would it take for the Taliban to take over? Anybody who would 
like to take that.
    Mr. Mastic. Well, regrettably, the Taliban already controls 
portions of the country. I don't know that they have the 
capability to sort of take over Kabul, in the sense of a, kind 
of, full takeover of the country, in part because of the 
efforts that have been put into sort of, like, building 
resiliency. But the writ of the Government of Afghanistan kind 
of ends at the Kabul city limits, unfortunately.
    Mr. Chabot. Right.
    Mr. Mastic. And so, how long could they kind of withstand 
that growing onslaught? It is hard for me to offer a timeline 
on that. But, certainly, if there is a minimized U.S. presence, 
efforts to ensure that doesn't happen are important, certainly.
    Mr. Chabot. Right. Thank you.
    I think, as distasteful as it is that we have to, it seems 
like, leave our men and women in harm's way in that region 
longer than a lot of us thought we would be there or should be 
there, I think the adverse consequences of pulling them out 
would be tragic and horrific, and we can't afford to do that.
    Let me shift gears completely. I don't have a whole lot of 
time left, and I am assuming that you all already talked about 
this to some degree. But who would like to comment on Prince 
Mohammad bin Salman's recent aggressive diplomatic tactics and 
what is going on there? And what should we think about that?
    Mr. Campbell, I think I see you champing at the bit.
    Mr. Campbell. Yeah. We did talk about it a little bit, but 
I think we all agreed that no one knows the inner workings of 
Saudi Arabia well enough.
    But just to make a comment, Yemen is such a volatile place 
right now, and there is a lot of saber rattling coming out of 
Saudi Arabia. Prime Minister Hariri, you know, left Lebanon, 
went to Saudi Arabia, then resigned. And then we had the 
sacking of the various princes and, you know, putting them in 
the Ritz Carlton and so on.
    I don't know the inner workings. We were saying earlier 
that perhaps this is an anticorruption move. But I would wonder 
if there is anyone in Saudi Arabia, you know, in the higher 
echelon of the princes that is not corrupt. So it is a little 
hard for me to believe that one group is not corrupt, all the 
other group is corrupt.
    But what really worries me more than anything is that, at 
this moment when the region is so sensitive and at this tender 
moment in terms of all-out warfare even worse than what we 
have, Saudi Arabia appears to want to start wars. And I don't 
know if they are going to fight the wars, because they haven't 
fought it very well in Yemen. They started, and they haven't 
been able to finish it. They have created a crisis there.
    So my only comment on that, not knowing the inner workings, 
is the way they are talking is not helpful.
    Mr. Chabot. I thank you.
    And my time has expired, but I would just, if I could, have 
one final comment. I think there ought to be considerable 
concern when one considers the rise of Iran in the region and 
the negative consequences of what they have wrought thus far. 
And to think that the Saudis could be unstable at this critical 
time is of, I think, considerable concern or ought to be.
    I yield back.
    Mrs. Wagner. The gentleman yields back.
    And now the Chair finally gets to recognize a gentleman 
with good patience, the gentleman from California, who is the 
chair of the Europe Subcommittee, the gentleman from 
California, Mr. Rohrabacher, for 5 minutes.
    Mr. Rohrabacher. Thank you very much. I have enjoyed this 
hearing. Thank you very much for stimulating the discussion.
    As I say, I went through this when our number-one enemy was 
the Soviet Union and communism was the great threat. And I 
don't know, maybe people won't agree with me now, but radical 
Islamic terrorists--and, as I say, when radical Islam gets in 
charge of a government, they become radical Islamist fascists, 
of a fascist system--is the number-one threat to the free 
people of the world.
    And I would hope that, as we get into this battle, that we 
are not making a mistake that peaceful change is the only way 
that happens in the world. We understand there are people 
fighting one another; we are not perfect people. But good 
intentions and people who more reflect what we would want them 
to do, if they don't come to power--and, no matter what their 
good intentions are, if who comes to power are these radical 
Islamic terrorists, then we have failed. Then we are making it 
a worse world by trying to be perfectionists.
    And all the criticism I have heard of Egypt right now, I 
will just have to tell you, I happen to believe that Morsi--
there was anelection after Morsi was removed, all right? I 
understand that Morsi was removed, that was a coup d'etat, and 
there was an election since then. However, if General Sisi and 
his government fall, does anyone here think that Christians 
will be more protected? And if Morsi would have stayed in, 
would Christians in Egypt be worse off? Or how about these 
other minorities that we are talking about? Would Egypt be a 
freer society now?
    And I will tell you, if Egypt falls, if the el-Sisi 
government would fall to a radical Islamic group, the whole 
Middle East would go into turmoil, and chances of freedom would 
be less.
    So, no matter how good people's intentions are, no matter 
how moral we can position ourselves, if the outcome is more 
radical Islamic governments, we have failed.
    And I happen to believe, yes, we should try to steer Egypt 
in the right direction, but we should not be focusing on Egypt 
when there are so many other governments there that are worse 
and would murder Christians if they had a chance. And I don't 
believe that is true of General Sisi and his group that now are 
in control of Egypt.
    And no matter how we can proclaim, through, you know, your 
whole civil society movement--we can proclaim how we want 
minority groups who have different sexual preferences to be 
protected or environmental ideas or rights of women--if we 
indeed insist on that in imperfect governments and we end up 
with radical Islamic governments, we have failed. We have taken 
the world in a worse direction. And I see that perfectionism 
leading to a world that is going to be less free, and 
especially in terms of the criticism I have heard today of 
Egypt.
    Let me ask you this. Would the panel just very quickly--do 
you consider the Muslim Brotherhood a democratic force, a 
positive force in the Middle East? Yes or no?
    Mr. Mastic. In Egypt? No.
    Mr. Rohrabacher. No, no. All throughout the Middle East.
    Mr. Mastic. I am concerned about the authoritarian, 
illiberal nature of the Muslim Brotherhood.
    Mr. Rohrabacher. Okay. So the answer is it is not. You say 
no on the Muslim Brotherhood.
    How about you? Muslim Brotherhood, positive force, negative 
force?
    Mr. Campbell. Positive or negative force? I think----
    Mr. Rohrabacher. Negative force? I want to make sure I get 
everyone's opinion.
    Mr. Campbell. But can I just----
    Mr. Rohrabacher. Negative or positive?
    Ms. Abdelkarim. It is a political party that must have the 
space to compete in elections like any other political party.
    Mr. Rohrabacher. I didn't catch that. Yes or no, is it a 
negative or a positive force in the Middle East?
    Ms. Abdelkarim. I cannot categorize it as a----
    Mr. Rohrabacher. Okay, you can't do that.
    Ms. Abdelkarim [continuing]. Positive force. Yes.
    Mr. Rohrabacher. Yeah.
    Ms. Abdelkarim. Yeah.
    Mr. Rohrabacher. That is really too bad. It tells a lot 
about you.
    Is it a positive or a negative force?
    Mr. Herman. To the extent that they are prepared to 
renounce violence as a way of gaining political support, I 
would say they could be a positive force. But I share very much 
Scott's analysis that, as we see it now, no.
    And, of course, in Egypt, the best outcome would have 
been----
    Mr. Rohrabacher. Okay.
    Mr. Herman [continuing]. For them to be just--not gone in a 
coup but voted out of office, and then innoculate the citizenry 
from thinking that that is a solution to the problems of Egypt.
    Mr. Rohrabacher. All right. Well, the Muslim Brotherhood 
gives excuses for people to tyrannize other human beings and 
exactly the thing your civil society claims to be against. And 
the world isn't just changed by violence; it is changed by 
people who propagate ideas that will lead to tyranny and to 
violence.
    The Muslim Brotherhood is a negative force in the world and 
especially in the Middle East. And we better start being 
realistic or we are going to have a totally destabilized world, 
where radical Islamic terrorists have a lot more threat to 
everybody else in the world than they have today.
    Thank you very much, Madam Chairman.
    Mrs. Wagner. The gentleman's time has expired.
    And, without further ado, the Middle East and North Africa 
Subcommittee hearing on democracy and governance in the Middle 
East and North Africa stands adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
